                                                                                                                              57063


Corrections                                                                                Federal Register
                                                                                           Vol. 67, No. 173


                                                                                           Friday, September 6, 2002




This section of the FEDERAL REGISTER           Friday, August 30, 2002, make the           DEPARTMENT OF TRANSPORTATION
contains editorial corrections of previously   following correction:
published Presidential, Rule, Proposed Rule,      On page 55858, in the first column, in   Federal Aviation Administration
and Notice documents. These corrections are    the fourth full paragraph, in the second
prepared by the Office of the Federal          line from the bottom, the web address
Register. Agency prepared corrections are
                                                                                           14 CFR Part 71
issued as signed documents and appear in
                                               ‘‘http://oig.hhs.gov/advopn/index.htm.’’
the appropriate document categories            should read ‘‘http://oig.hhs.gov/fraud/     [Airspace Docket No. 02–ACE–7]
elsewhere in the issue.                        advisoryopinions.html’’.
                                               [FR Doc. C2–22124 Filed 9–5–02; 8:45 am]    Proposed Modification of Class D
                                               BILLING CODE 1505–01–D                      Airspace; Knob Noster, Whiteman
OFFICE OF GOVERNMENT ETHICS                                                                AFB, MO; and Modification of Class E
                                                                                           Airspace; Knob Noster, Whiteman
Issuance and Revocation of Temporary           SECURITIES AND EXCHANGE                     AFB, MO
Post-Employment Waiver                         COMMISSION
                                                                                           Correction
Correction                                     [Release No. 34–46376; File No. SR–NASD–
                                               99–04                                         In proposed rule document 02–21136
   In notice document 02–22204
                                                                                           beginning on page 55180 in the issue of
beginning on page 55844 in the issue of        Self-Regulatory Organizations; Order
Friday, August 30, 2002, make the                                                          Wednesday, August 28, 2002 make the
                                               Approving Proposed Rule Change and          following correction:
following correction:                          Notice of Filing and Order Granting
   On page 55844, in the EFFECTIVE DATE:       Accelerated Approval to Amendment           §71.1   [Corrected]
section, ‘‘October 29, 2002’’ should read      No. 2 to the Proposed Rule Change by
‘‘November 29, 2002’’.                         the National Association of Securities        On page 55181, in the second column,
[FR Doc. C2–22204 Filed 9–5–02; 8:45 am]       Dealers, Inc. Relating to Microcap          in § 71.1, under the heading ACE MO
                                               Initiative–Recommendation Rule              E2 Knob Noster, MO [Revised], in the
BILLING CODE 1505–01–D
                                                                                           sixth line, ‘‘long. 93° 34′ 231″ W.)’’
                                               Correction                                  should read ‘‘long. 93° 34′ 21″ W.)’’.
DEPARTMENT OF HEALTH AND                         In notice document 02–21651               [FR Doc. C2–21136 Filed 9–5–02; 8:45 am]
HUMAN SERVICES                                 beginning on page 54832 in the issue of     BILLING CODE 1505–01–D
                                               Monday, August 26, 2002, make the
Office of Inspector General                    following correction:
                                                 On page 54835, in the second column,
Publication of OIG Special Advisory            in section V. Solicitation of Comments,
Bulletin on Offering Gifts and Other           in the last two lines, ‘‘[insert date 21
Inducements to Beneficiaries                   days from date of publication]’’ should
Correction                                     read ‘‘September 16, 2002’’.
  In notice document 02–22124                  [FR Doc. C2–21651 Filed 9–5–02; 8:45 am]
beginning on page 55855 in the issue of        BILLING CODE 1505–01–D
